Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


HAWAII DID NOT COMPLY WITH
  SOME PROVISIONS OF THE
QUEST EXPANDED MEDICAID
  DEMONSTRATION PROJECT
    WHEN DETERMINING
  ELIGIBILITY FOR FEDERAL
    REIMBURSEMENT OF
UNCOMPENSATED CARE COSTS
  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General

                                                      December 2013
                                                      A-09-12-02084
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                        EXECUTIVE SUMMARY

 For State fiscal years 2011 and 2012, Hawaii did not comply with some provisions of the
 special terms and conditions of the QUEST Expanded Medicaid demonstration project
 when determining whether governmentally operated hospitals’ uncompensated care costs
 were eligible for Federal reimbursement.

WHY WE DID THIS REVIEW

The Hawaii Department of Human Services (State agency) entered into an agreement with the
Centers for Medicare & Medicaid Services (CMS) to provide medical, dental, and behavioral
health services under the QUEST Expanded Medicaid demonstration project (the
demonstration). According to the demonstration’s special terms and conditions, the State agency
is permitted to make payments to governmentally operated facilities to cover their
uncompensated care costs for hospital services provided to the uninsured or underinsured. The
State agency reported to CMS $74.7 million in uncompensated care costs for State fiscal years
(SFYs) 2011 and 2012. If uncompensated care costs are overstated, the claim for Federal
reimbursement will also be overstated.

Our objective was to evaluate whether the State agency complied with the demonstration’s
special terms and conditions when determining whether governmentally operated hospitals’
uncompensated care costs were eligible for Federal reimbursement.

BACKGROUND

Payments to governmentally operated hospitals to cover their uncompensated care costs are
funded with certified public expenditures (CPEs). The State agency is allowed to claim for
Federal reimbursement the CPEs for uncompensated care costs. The demonstration’s special
terms and conditions state that uncompensated care costs included as CPEs must not include
inpatient Medicaid fee-for-service shortfalls, the cost of providing nonemergency care to certain
aliens, and the cost of providing drugs to individuals eligible for Medicare Part D.

The State agency’s process to determine the CPEs for claiming Federal reimbursement for the
hospitals’ uncompensated care costs has three phases:

   •   The interim quarterly expenditure payment for each hospital is the basis of the State
       agency’s initial claim for drawing down Federal funds, which is based on the
       cost-to-charge ratios calculated from the hospital’s prior-period Medicare cost report.

   •   The annual reconciliation payment for each hospital is calculated by reconciling the
       interim quarterly expenditure payments with its filed Medicare cost report. The annual
       reconciliation should be completed within 12 months after the filing of the Medicare cost
       report.

   •   The final reconciliation payment for each hospital is reconciled with the finalized
       Medicare cost report for the respective cost-reporting period. The final reconciliation is


Uncompensated Care Costs for Hawaii’s QUEST Expanded Medicaid Demonstration (A-09-12-02084)         i
       completed within 6 months after the issuance of the hospital’s finalized Medicare cost
       report.

WHAT WE FOUND

For SFYs 2011 and 2012, the State agency did not comply with some provisions of the
demonstration’s special terms and conditions when determining whether governmentally
operated hospitals’ uncompensated care costs were eligible for Federal reimbursement:

   •   To calculate the interim quarterly expenditure payments for the two SFYs, the State
       agency (1) did not use the hospitals’ filed Medicare cost reports and (2) included in the
       uncompensated care costs the inpatient Medicaid fee-for-service shortfalls and the cost of
       providing nonemergency care to certain aliens, which were unallowable for Federal
       reimbursement.

   •   To determine the annual reconciliation payment for SFY 2011, the State agency did not
       reconcile the interim quarterly expenditure payments with the filed Medicare cost report
       for each hospital within 12 months after filing the cost report.

The financial effect of the State agency’s noncompliance with the demonstration’s special terms
and conditions could not be determined because the hospitals’ Medicare cost reports had not
been finalized for the two SFYs.

WHAT WE RECOMMEND

We recommend that the State agency:

   •   for interim quarterly expenditure payments, use the hospitals’ filed Medicare cost reports
       and exclude unallowable costs from the CPEs used for claiming Federal reimbursement
       and

   •   for annual reconciliation payments, perform annual reconciliations within 12 months
       after filing the Medicare cost reports.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
described actions that it planned to take to address our recommendations.




Uncompensated Care Costs for Hawaii’s QUEST Expanded Medicaid Demonstration (A-09-12-02084)       ii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................1

           Why We Did This Review ...............................................................................................1

           Objective ..........................................................................................................................1

           Background ......................................................................................................................1
                 Administration of the Medicaid Program and Authorization of
                   Section 1115 Demonstration Projects ...............................................................1
                 Hawaii QUEST Expanded Medicaid Demonstration Project ..............................1
                 Special Terms and Conditions of the QUEST Expanded Medicaid
                   Demonstration Project ......................................................................................2

           How We Conducted This Review....................................................................................3

FINDINGS ...................................................................................................................................3

           Calculation of Interim Quarterly Expenditure Payments.................................................4
                  State Agency Did Not Use the Filed Medicare Cost Reports To
                    Calculate Cost-to-Charge Ratios.......................................................................4
                  State Agency Included in the Uncompensated Care Costs
                    Certain Unallowable Costs ...............................................................................4

           Calculation of Annual Reconciliation Payment ...............................................................4

RECOMMENDATIONS .............................................................................................................5

STATE AGENCY COMMENTS ................................................................................................5

APPENDIXES

           A: Audit Scope and Methodology ..................................................................................6

           B: State Agency Comments ............................................................................................7




Uncompensated Care Costs for Hawaii’s QUEST Expanded Medicaid Demonstration (A-09-12-02084)                                                        iii
                                                 INTRODUCTION

WHY WE DID THIS REVIEW

The Hawaii Department of Human Services (State agency) entered into an agreement with the
Centers for Medicare & Medicaid Services (CMS) to provide medical, dental, and behavioral
health services under the QUEST Expanded Medicaid demonstration project (the
demonstration). According to the demonstration’s special terms and conditions, the State agency
is permitted to make payments to governmentally operated facilities 1 to cover their
uncompensated care costs for hospital services provided to the uninsured or underinsured. The
State agency reported to CMS $74.7 million in uncompensated care costs for State fiscal years
(SFYs) 2011 and 2012. If uncompensated care costs are overstated, the claim for Federal
reimbursement will also be overstated.

OBJECTIVE

Our objective was to evaluate whether the State agency complied with the demonstration’s
special terms and conditions when determining whether governmentally operated hospitals’
uncompensated care costs were eligible for Federal reimbursement.

BACKGROUND

Administration of the Medicaid Program and Authorization of
Section 1115 Demonstration Projects

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the program. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

Section 1115 of the Social Security Act (the Act) provides the Secretary of Health and Human
Services with broad authority to authorize demonstration projects to assist in promoting the
objectives of the Medicaid program. Under section 1115, the Secretary may waive compliance
with any of the requirements of section 1902 of the Act to enable States to carry out these
projects and receive Federal funds. In addition, the Secretary may also authorize expenditures
under section 1115 that cannot otherwise be claimed for Federal reimbursement under section
1903 of the Act.

Hawaii QUEST Expanded Medicaid Demonstration Project

In Hawaii, the State agency administers the Medicaid program. On August 1, 1994, the State
agency implemented QUEST Expanded Medicaid, a section 1115 demonstration project, to
provide medical, dental, and behavioral health services. The State agency entered into an
agreement with CMS under the demonstration’s special terms and conditions, which describe the

1
    Governmentally operated facilities include hospitals and freestanding nursing facilities.


Uncompensated Care Costs for Hawaii’s QUEST Expanded Medicaid Demonstration (A-09-12-02084)      1
extent of Federal involvement in the demonstration and the State agency’s obligations to CMS
during the period of the demonstration.

Special Terms and Conditions of the QUEST Expanded Medicaid
Demonstration Project

According to the demonstration’s special terms and conditions, the State agency is permitted to
make payments to governmentally operated facilities to cover uncompensated care costs for
hospital services. These costs include the costs of providing hospital services to the uninsured or
underinsured. Payments to governmentally operated hospitals to cover their uncompensated care
costs are funded with certified public expenditures (CPEs). The State agency is allowed to claim
for Federal reimbursement the CPEs for uncompensated care costs.

The Hawaii Health Systems Corporation (the Corporation) oversees governmentally operated
facilities and receives appropriations from the State of Hawaii’s general fund to cover some of
the cost of these facilities’ operations. The Corporation uses these appropriations to operate and
certifies how much was spent on uncompensated care, to be submitted to the State agency for
claiming the uncompensated care costs under the special terms and conditions.

In the special terms and conditions, CMS approved the CPE/Governmentally Owned Hospital
Uncompensated Care Cost Protocol (the protocol). The protocol establishes the procedures and
methods that the State agency uses to determine the hospitals’ uncompensated care costs that are
eligible for Federal reimbursement. According to the protocol, expenditures are certified
according to costs reported on each hospital’s Medicare cost report. The Corporation compiles
the cost report for each hospital. Cost-to-charge ratios for each hospital are calculated using the
total costs from the hospital’s filed Medicare cost report.

The special terms and conditions of the demonstration state that uncompensated care costs
included as CPEs must not include inpatient Medicaid fee-for-service shortfalls, 2 the cost of
providing nonemergency care to certain aliens, 3 and the cost of providing drugs to individuals
eligible for Medicare Part D.

The State agency’s process to determine the CPEs for claiming Federal reimbursement for the
hospitals’ uncompensated care costs has three phases:

    •    The interim quarterly expenditure payment for each hospital is the basis of the State
         agency’s initial claim for drawing down Federal funds, which is based on the
         cost-to-charge ratios calculated from the hospital’s prior-period Medicare cost report.


2
  A “shortfall” is the cost of providing a service less the payment received for the service, either in accordance with
the State plan or the demonstration, and is net of any profit earned on a fee-for-service or managed-care
reimbursement (Attachment 4.19-A, § VIII(A)(4), of the State plan).
3
  Certain aliens are those considered unqualified aliens, qualified aliens subject to a 5-year ban, and those from
countries that have entered into a Compact of Free Association with the United States. Unqualified aliens are
individuals whose alien status makes them ineligible for Federal medical assistance. Qualified aliens subject to a
5-year ban are aliens prohibited from medical assistance for 5 years from the date of entry into the United States.


Uncompensated Care Costs for Hawaii’s QUEST Expanded Medicaid Demonstration (A-09-12-02084)                               2
       •   The annual reconciliation payment for each hospital is calculated by reconciling the
           interim quarterly expenditure payments with its filed Medicare cost report. The annual
           reconciliation should be completed within 12 months after the filing of the Medicare cost
           report.

       •   The final reconciliation payment for each hospital is reconciled with the finalized
           Medicare cost report for the respective cost-reporting period. The final reconciliation is
           completed within 6 months after the issuance of the hospital’s finalized Medicare cost
           report.

HOW WE CONDUCTED THIS REVIEW

Our audit covered SFYs 2011 and 2012. 4 We reviewed the special terms and conditions of the
demonstration. We limited our review of the State agency’s internal controls to those controls
over ensuring compliance with the special terms and conditions of the demonstration for
governmentally operated hospitals. We did not review freestanding nursing facilities.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                                      FINDINGS

For SFYs 2011 and 2012, the State agency did not comply with some provisions of the
demonstration’s special terms and conditions when determining whether governmentally
operated hospitals’ uncompensated care costs were eligible for Federal reimbursement:

       •   To calculate the interim quarterly expenditure payments for the two SFYs, the State
           agency (1) did not use the hospitals’ filed Medicare cost reports and (2) included in the
           uncompensated care costs the inpatient Medicaid fee-for-service shortfalls and the cost of
           providing nonemergency care to certain aliens, which were unallowable for Federal
           reimbursement.

       •   To determine the annual reconciliation payment for SFY 2011, the State agency did not
           reconcile the interim quarterly expenditure payments with the filed Medicare cost report
           for each hospital within 12 months after filing the cost report.

The financial effect of the State agency’s noncompliance with the demonstration’s special terms
and conditions could not be determined because the hospitals’ Medicare cost reports had not
been finalized for the two SFYs.

4
    The State agency’s fiscal year ends on June 30.


Uncompensated Care Costs for Hawaii’s QUEST Expanded Medicaid Demonstration (A-09-12-02084)             3
CALCULATION OF INTERIM QUARTERLY EXPENDITURE PAYMENTS

To calculate the interim quarterly expenditure payments to governmentally operated hospitals for
SFYs 2011 and 2012, the State agency did not use the filed Medicare cost report for each
hospital and included certain costs that were unallowable for Federal reimbursement.

State Agency Did Not Use the Filed Medicare Cost Reports To Calculate Cost-to-Charge
Ratios

According to the protocol, the interim quarterly expenditure payment for each hospital is the
basis of the State agency’s initial claim for drawing down Federal funds. This payment is based
on the cost-to-charge ratios calculated from the hospital’s prior-period Medicare cost report.

To calculate the interim quarterly expenditure payments, the State agency did not use the prior-
period Medicare cost report for each hospital to calculate the cost-to-charge ratios. Instead, the
State agency used the Medicaid final settlement cost report.

State Agency Included in the Uncompensated Care Costs Certain Unallowable Costs

According to the demonstration’s special terms and conditions, uncompensated care costs for
governmentally operated hospitals must not include (1) inpatient Medicaid fee-for-service
shortfalls; (2) the cost of providing nonemergency care to certain aliens; and (3) the cost of
providing drugs to individuals eligible for Medicare Part D.

To calculate the interim quarterly expenditure payments, the State agency properly excluded
from the uncompensated care costs the cost of providing drugs to individuals eligible for
Medicare Part D. However, the State agency included in the uncompensated care costs the
inpatient Medicaid fee-for-service shortfalls and the cost of providing nonemergency care to
certain aliens:

   •   The State agency did not adjust the governmentally operated hospitals’ uncompensated
       care costs to exclude the costs for inpatient Medicaid fee-for-service shortfalls. The State
       agency reported these costs on the incorrect CMS form for claiming Federal
       reimbursement.

   •   The State agency did not adjust the governmentally operated hospitals’ uncompensated
       care costs to exclude the cost of providing nonemergency care to certain aliens.

CALCULATION OF ANNUAL RECONCILIATION PAYMENT

According to the protocol, the annual reconciliation payment for each hospital is calculated by
reconciling the interim quarterly payments with its filed Medicare cost report. The annual
reconciliation should be performed and completed within 12 months after the filing of the
hospital’s Medicare cost report.




Uncompensated Care Costs for Hawaii’s QUEST Expanded Medicaid Demonstration (A-09-12-02084)          4
To calculate the annual reconciliation payment for SFY 2011, the State agency did not reconcile
the interim quarterly expenditure payments with each hospital’s filed Medicare cost report. The
State agency files the Medicare cost report within 5 months after the end of the SFY. Therefore,
the annual reconciliation should have been completed by November 30, 2012. The initial claim
for Federal reimbursement is based on interim quarterly payments using the prior-period cost
report. Once the Medicare cost report is filed, the payments should be adjusted to coincide with
the actual costs for the period. By not performing the reconciliation, the State agency claimed
costs based on estimates.

For SFY 2012, the State agency is in the process of completing the annual reconciliation for each
hospital within 12 months after filing the Medicare cost report. The reconciliation is due on
November 30, 2013.

                                     RECOMMENDATIONS

We recommend that the State agency:

   •   for interim quarterly expenditure payments, use the hospitals’ filed Medicare cost reports
       and exclude unallowable costs from the CPEs used for claiming Federal reimbursement
       and

   •   for annual reconciliation payments, perform annual reconciliations within 12 months
       after filing the Medicare cost reports.

                                STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
described actions that it planned to take to address our recommendations. The State agency’s
comments are included in their entirety as Appendix B.




Uncompensated Care Costs for Hawaii’s QUEST Expanded Medicaid Demonstration (A-09-12-02084)     5
                  APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered SFYs 2011 and 2012. We did not review the State agency’s overall internal
control structure because our objectives did not require us to do so. We limited our review of the
State agency’s internal controls to those controls over ensuring compliance with the special
terms and conditions of the demonstration for governmentally operated hospitals. We did not
review freestanding nursing facilities.

We conducted fieldwork from November 2012 to March 2013 at the State agency’s offices in
Honolulu, Hawaii.

METHODOLOGY

To accomplish our objective, we:

   •   reviewed Federal laws and regulations and the State plan,

   •   reviewed the special terms and conditions of the demonstration,

   •   held discussions with CMS and State agency officials to gain an understanding of the
       special terms and conditions,

   •   evaluated the methods used to determine whether the hospitals’ uncompensated care
       costs were eligible for Federal reimbursement,

   •   judgmentally selected two governmentally operated hospitals for SFY 2012 to review the
       calculation of the cost-to-charge ratios,

   •   reviewed the CPEs to determine whether the State agency excluded unallowable costs,
       and

   •   discussed the results of our review with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Uncompensated Care Costs for Hawaii’s QUEST Expanded Medicaid Demonstration (A-09-12-02084)      6
                            APPENDIX B: STATE AGENCY COMMENTS 




                                                                                            PATRICIA MCMANAMAN
         NEIL ABERCROMBIE
                                                                                                  DIRECTOR
             GOVERNO R

                                                                                            BARBARA A. YAMASHITA
                                                                                               D EPUTY DIRECTOR




                                                    STAT£ OF HAWAII
                                     DEPARTMENT OF HUMAN SERVICES
                                                    Ollicc of the Directo r 

                                                        1'. 0 . Box 339 

                                                Ho nolulu. Hawaii 96809-0339 





            November 5, 2013




            Ms. Lori A. Ahlstrand 

            Regional Inspector General for Audit Services 

            Office of Audit Services, Region IX 

            90-i 11 Street, Suite 3-650 

            San Francisco, California 94103 


            Dear Ms. Ahlstrand:

            Enclosed is the Department of Human Services ' responses and corrective acti on plan related to
            your draft audit entitled Hawaii Did Not Comply with Some Provision ofthe QUEST Expanded
            Medicaid Demonstration Project When Determining Eligibility for Federal Reimbursement of
            Uncompensated Costs, aud it number A-09-12-02084 dated September 20 I 3.

            We appreciate th e opportunity to comment on the audit repot1.

            Sincerely,




        ~~  Director

            Enclosure




                                               AN EQUAL OPPORTUNITY AGENCY




Uncompensated Care Costs for Hawaii's QUEST ExpandedMedicaid Demonstration (A -09-1 2-02084)                       7
            Findings and Recommendation

            For SFYs 2011 and 2012, the State agency did not comply with some provisions of the
            demonstration's special terms and conditions when determining whether governmentally operated
            hospitals ' uncompensated care costs were eligible for Federal reimbursement:

            • 	 To calculate the interim quarterly expenditure payments for the two SFYs, the State agency ( I )
                did not use the ho spitals' filed Medicare cost reports and (2) included in the uncompensated
                care costs the inpatient Medicaid fee-for-service shortfalls and the cost of providing
                nonemergency care to certain aliens, which were unallowable for Federal reimbursement.

            • 	 To determine the annual reconciliation payment for SFY 201 I, the State agency did not
                reconcile the interim quarterly expenditure payments with the filed Medicare cost report for
                each ho spital within 12 months after filing the cost report.

            The financial effect of the State agency's noncompliance with the demonstration's special tenns
            and conditions could not be determined because the hospitals ' Medicare cost reports had not been
            finalized for the two SFYs.


            Auditor's Recommendation

            We recommend that the State Agency:

            • 	 For interim quarterly expenditu re payments, use the hospitals' filed Medicare cost reports and
                exclude unallowable costs from the CPEs used for claimin g Federal reimbursement; and

            • 	 For annual reconciliation payments, perform annual reconciliations within 12 months after
                filing the Medicare cost reports.


            Concurrence/Corrective Action Taken or Planned

            We concur wi th the auditor's findings. The Department will work with the Hawaii Health System
            Corporation (HHSC) and our fiscal agent to reconcile the interim quarterly payments to the as file
            cost reports. In addition, we will work with HHSC to conduct a data match ofcost for state only
            participants serviced by HHSC. We will also work with HHSC to ensure that HHSC has the
            sufficient staffing levels to conduct the interim reconciliation to the as file cost reports.

            Also, as noted in your audit report the final reconciliation to the final cost report could not be
            completed until Medicare has completed their review and will adjust the CMS-64 as needed.




                                                AN EQUAL OPPORTUNITY AGENCY




Uncompensated Care Costs for Hawaii's QUEST ExpandedMedicaid Demonstration (A -09-12-02084)                        8
